Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      PUBLIC HEALTH AND
        MANAGED CARE

  OPPORTUNITIES FOR COLLABORATION




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY 1999
                      OEI-01-98-00170
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General. Principal OEI staff included:

REGION                                                                         HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                             Elise Stein, Program Specialist
Nicola Y. Pinson




        To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                         EXECUTIVE SUMMARY

PURPOSE

         To assess how State public health agencies are taking advantage of opportunities for
         collaboration with managed care plans to further population-based health activities.

BACKGROUND

         State and local public health agencies carry out a fundamental government responsibility
         to protect the health of the population. They track disease, intervene in communities to
         control exposures that threaten the population, and respond to changes in communities’
         health needs.

         Increasing portions of privately and publicly insured populations are enrolled in managed
         care plans. As organized systems of care that are increasingly data-driven, managed care
         plans offer public health agencies opportunities to track disease and health trends and to
         mount effective interventions.

         The Department of Health and Human Services has recognized the important influence of
         managed care across many operating divisions. Within the Department, the Centers for
         Disease Control and Prevention, the Health Resources and Services Administration, and
         the Health Care Financing Administration have initiatives that directly address the impact
         of managed care on public health programs within their purview.

         This inspection utilizes the results of a national survey of State health officers and
         intensive interviews with State and local public health officials to obtain an overview of
         activities that are taking place in this field.

FINDINGS

States are giving increased attention to fostering collaborations between public
health departments and managed care organizations.

         Public health officials in 16 of 47 States responding to our survey reported that their State
         requires managed care organizations to collaborate with public health departments.

         Because collaborations are very recent, measurable accomplishments to date are limited.
         Yet, all 16 of these State officials indicated that they plan to continue the collaborations.



Public Health and Managed Care                    -1-                                      OEI-01-98-00170
         Despite the absence of State law or regulations, another 27 States reported that some
         collaborations are taking place between managed care plans and public health
         departments.

Collaborations focus predominantly on delivering services, rather than on
population-based public health activities.

         The majority of States reported that collaborations focus on delivering direct personal and
         medical services to Medicaid eligible individuals enrolled in managed care plans.

         Very few States reported collaborations that link clinical activities of managed care
         organizations with population-based functions that are the responsibility of public health
         departments.

We identified three major areas of challenge that confront collaborations to
further public health population-based functions.

         Although there is a conceptual alignment between managed care and public health
         concepts of prevention-oriented health services, managed care goals do not translate easily
         into public health goals.

         Managed care operational decisions and activities are affected by multiple stakeholders,
         such as medical providers and private health care purchasers. Yet, these groups are
         largely absent in planning and implementing the collaborations.

         Despite the potential role that clinical data from managed care plans could play to enhance
         public health activities, States reported extensive obstacles that hinder data sharing.

CONCLUSION

         Based on the findings of our study, we come to one central conclusion: Collaborations
         that address public health population-based strategies have barely begun. In fact, the
         current environment may mean that opportunities for realizing the potential of
         collaboration are fading.

         We draw this conclusion from elements we identified in our findings, including the
         traditional isolation between the medical and public health sectors; limited participation
         among key stakeholders; and the resources needed to coordinate data systems and
         collection. In addition, the situation looks even less promising when one considers
         constraints such as the highly competitive market among managed care organizations and
         their increasing reliance on decentralized network models to deliver services.




Public Health and Managed Care                   -2-                                     OEI-01-98-00170
OPPORTUNITIES FOR IMPROVEMENT

         Given these constraints, constructive movement toward collaborations to further essential
         public health population-based activities is hard pressed based on good will efforts alone.
         Because regulation of managed care plans occurs for the most part at the State level, the
         Federal role in encouraging MCOs to invest in broad population-based activities is limited.
         But the Department of Health and Human Services can exert an important leadership role
         by encouraging collaboration under its existing authorities.

         To be sure, components within the Department have begun to coordinate their managed
         care and public health activities. For example, HCFA, HRSA, and CDC have recently
         signed a formal interagency agreement to support data sharing between State Medicaid
         and public health agencies. These agencies also have supported the development of
         contract specifications that provide guidance on purchasing services such as
         immunizations, tuberculosis, lead paint poisoning, and HIV/AIDS.

         Toward this goal, and with this progress in mind, we offer some options for consideration.

         <	    The Centers for Disease Control and Prevention could incorporate into its program
               announcements and guidance specific language pertaining to coordination of public
               health and managed care activities, including data sharing, where appropriate.

         <	    The Health Care Financing Administration could encourage States to require that
               managed care plans contracting with Medicaid specify how they will work with State
               and local health agencies to identify and achieve public health goals; encourage State
               Medicaid programs to examine sample purchasing specifications as they prepare
               contracts with managed care providers; and encourage managed care plans to share
               HEDIS or other appropriate data with State public health departments in order to
               enhance their surveillance function.

         <	    The Health Resources and Services Administration could work with organizations,
               such as community health centers and Ryan White CARE Act-funded providers, that
               participate in managed care networks to help these providers exchange data with the
               State public health departments. The agency also could foster collaborations by
               encouraging its field units in the Department’s Regional Offices to work proactively
               with the States to initiate collaborative activity with managed care organizations.

COMMENTS ON THE DRAFT REPORT

         Within the Department, we received written comments on the draft report from CDC,
         HCFA, and HRSA. We also received comments from the Association of State and
         Territorial Health Officials. Here, we summarize these comments and our response. We
         have also made a number of editorial and technical changes in the report.

Public Health and Managed Care                    -3-                                    OEI-01-98-00170
Centers for Disease Control and Prevention (CDC)

         The CDC generally agrees with our report, but asks that we clarify wording regarding the
         emphasis it might place upon activities it funds. We have adopted, with minor
         modification, the CDC’s recommended language because it provides additional specificity
         to further the intent of actions we suggested.

         The CDC also raises concerns that our conclusion is too negative. We based this
         conclusion on evidence we found — the limited extent and scope of collaborative efforts,
         and the formidable constraints that confront them.

Health Care Financing Administration (HCFA)

         The HCFA concurs with the opportunities for improvement we identified. The HCFA
         questions whether it should require Medicaid plans to share HEDIS data with public
         health agencies. We believe that HCFA could exert leverage for further collaboration by
         requiring the sharing of such data. We modified language to address HCFA’s concern.

         The HCFA also asks us to seek input of State Medicaid directors. We carefully weighed
         such a survey, but opted to focus on public health departments in order to find
         collaboration occurring among private sector, as well as in Medicaid managed care plans.

Health Resources and Services Administration (HRSA)

         The HRSA asks that we replace our suggestion that HRSA require States to provide
         information on linkages with language to encourage the development of voluntary
         reporting measures on such linkages. In response, we modified the report to address
         HRSA’s concern. Such information would provide HRSA with a baseline from which the
         agency could develop technical assistance, training, information dissemination, and
         evaluation efforts through its Center for Managed Care.

Association of State and Territorial Health Officials (ASTHO)

         The ASTHO raises concerns that our report does not adequately reflect the work
         regarding collaborations that focus on service delivery. We do not diminish the
         importance of these services. Rather, this report focuses on population-based activities.

         The ASTHO indicates that, while it may be true that State and local public health officials
         are missing out on opportunities, our report seems to indicate that the problem lies solely
         with health departments. We do not ascribe blame to any sector. Our text indicates the
         challenges that confront both the public health and managed care sectors.




Public Health and Managed Care                   -4-                                    OEI-01-98-00170
                      TABLE                       OF             CONTENTS

                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS

      Collaborations Increasing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Few Population-Based Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Obstacles to Collaboration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDICES


A:       Text of Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


B:       Frequency Responses to Mail Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36


C:       Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45





Public Health and Managed Care                             -5-                                                OEI-01-98-00170
                                 INTRODUCTION

PURPOSE

         To assess how State public health agencies are taking advantage of opportunities for
         collaboration with managed care plans to further population-based health activities.

BACKGROUND

Public Health Population-Based Functions

         State and local public health agencies carry out a fundamental government responsibility
         to protect the health of the population at large. This public health responsibility relies on
         population-wide surveillance systems that provide basic information for public health
         officials to track and trace disease within communities, intervene in communities and
         control exposures that are threats to the population, and develop appropriate policies and
         programs that respond to the changes in health status and health needs of communities.

         Over the past several decades, public health departments have also taken on a role in
         providing medical care to low-income and uninsured populations. As States shift
         increasing portions of Medicaid and low-income populations into private managed care
         plans, the role of public health agencies is also changing. In many States, public health
         agencies are lessening their role in the provision of clinical services, and turning increased
         focus toward population-wide strategies that make communities a healthier place to live.

Opportunities for Collaboration with Managed Care Organizations

         Public health agencies and managed care organizations (MCOs) have the potential to
         combine efforts to pursue activities that neither system can do alone. With timely and
         accurate data from managed care organizations, public health agencies can identify
         changes and trends in key health indicators, and mount effective interventions. In turn,
         managed care organizations can benefit from effective public health population-based
         practices that prevent medical problems. The Institute of Medicine recently reported, “If
         the proper kind of partnerships between managed care organizations and government
         public health departments are developed, managed care can indeed make an important
         contribution to improving the health of the public.”1

         We identified five key characteristics of managed care plans that present a unique
         opportunity for public health agencies in pursuing population-based strategies:



Public Health and Managed Care                    -6-                                      OEI-01-98-00170
                   1. Managed care organizations are responsible for providing health care services
                   to increasing numbers of both privately and publicly insured populations. State
                   governments are using managed care for most or all of their Medicaid programs.

                   2. Managed care organizations and public health departments share interests in
                   prevention-oriented activities. Under a capitated system, MCOs have financial
                   incentive to support public health prevention activities in order to reduce cost of
                   expensive medical interventions.

                   3. Managed care organizations represent organized care systems that focus on
                   defined populations. In contrast to loosely integrated individual providers and
                   patients in the fee-for-service system, managed care systems offer a more
                   consolidated potential for communication with the public health system.

                   4. Health care services and quality in managed care plans are increasingly data
                   driven, offering public health opportunities to track disease and health trends
                   among communities. Managed care plans maintain and continue to develop data
                   systems to measure performance and improve quality of services; States are also
                   employing external systems of measurement (e.g., HEDIS 3.0). These systems
                   could provide timely and accurate data that are necessary for public health to
                   mount effective interventions.

                   5. Managed care organizes individual physicians into larger networks and may
                   sponsor continuing education, practice guidelines, and other influences over
                   physician practices.

The Federal Interest in Fostering Collaboration

         The Department has recognized the important influence of managed care across many
         operating divisions. The Centers for Disease Control and Prevention, the Health
         Resources and Services Administration, and the Health Care Financing Administration all
         have initiatives that directly address the impact of managed care on public health programs
         within their purview.

         The new Strategic Plan for the Department notes that “the shift to managed care heralds a
         changing role for health agencies, especially the opportunity to concentrate on providing a
         full range of essential public health services.”2

         The Centers for Disease Control and Prevention (CDC) maintains a particular interest in
         ensuring that data collection and disease surveillance systems are operating effectively to
         ensure the health of the public. The CDC has supported several grants to strengthen State
         public health infrastructures and improve the integration of information systems. These
         include, for example, the CDC Assessment Initiative and the CDC Information Network


Public Health and Managed Care                      -7-                                     OEI-01-98-00170
         for Public Health Officials (INPHO) grant.

         The Health Resources and Services Administration (HRSA) established a Center for
         Managed Care in 1996 to provide technical assistance, training, information dissemination,
         and evaluation on managed care issues that cross all of HRSA’s programs. “The Center is
         responsible for assuring that HRSA's programs and the underserved and vulnerable
         populations they serve are active and knowledgeable participants in managed care
         systems.”3

         The Health Care Financing Administration (HCFA) has supported the development of
         managed care for beneficiaries in both the Medicaid and Medicare programs. The
         intersection between Medicaid managed care and public health agencies is of particular
         note in specifying coordination of essential public health services that occur outside the
         clinical environment. In addition, public health agencies can play a role in developing
         quality indicators to monitor the performance of plans.

METHODOLOGY AND SCOPE

         The intent of this inquiry is to provide a national overview of the extent to which State
         public health departments are pursuing collaborative opportunities with managed care
         organizations. We focus on an assessment of the extent and overall nature of these
         relationships, excluding attention to specific details of individual case studies.

         Data collection for this inspection comprises three parts: 1.) A national mail survey of
         State Health Officers conducted in June 1998. We focused on State Health Officers
         because we determined that the State Health Department would be in the best position to
         know about population-based public health activities; 2.) Structured follow-up telephone
         interviews with State and local public health officials to obtain a more in-depth
         understanding of the activities that are taking place in this field. We also conducted
         structured interviews with several representatives of the managed care sector; 3.) An
         intensive site visit to Minnesota, a State with legislatively mandated collaboration between
         managed care plans and the public health community.




Public Health and Managed Care                   -8-                                     OEI-01-98-00170
                                     FINDINGS

States are giving increased attention to fostering collaborations
between public health departments and managed care
organizations.
Public health departments in 16 of 47 States responding to our survey reported
that their State requires managed care organizations to collaborate in some way
with public health departments.

         Within the last several years, States have established a range of requirements that
         encourage collaborative activities between public health departments and managed care
         organizations. Six of the 16 States require all managed care organizations to collaborate
         with local or State public health departments. Twelve States require collaboration in their
         Medicaid managed care contracts. Two States require collaboration in both the Medicaid
         contract, as well as more broadly among all MCOs.

         Minnesota and New York, for example, require all State-regulated MCOs to collaborate
         with local health departments. In Minnesota, State law requires MCOs to develop
         collaboration plans in conjunction with local health departments. Each MCO must submit
         collaboration plan documents biennially to the Minnesota Department of Health. These
         documents describe how the MCO will work with local or State public health departments
         toward achieving public health goals. In New York, the Department of Health requires
         MCOs to coordinate specific public health related services, such as communicable disease
         control, with local public health departments.

         The majority of the 16 States require collaboration in the Medicaid contract with MCOs.
         We identified two ways that States require collaboration in Medicaid contracts. First,
         most contracts require MCOs to reimburse public health departments for delivering
         specific services to enrollees. These include services that public health department
         traditionally provided for Medicaid clients, such as immunizations, family planning,
         prenatal and postnatal care, and STD services. Second, some contracts require
         coordination between clinical services and population-based public health services. For
         example, the Michigan Medicaid contract developed a detailed matrix that specifies
         essential roles for the State health department, local health departments, and MCOs
         regarding eight services provided by MCOs, such as services for communicable disease
         and lead poisoning.

         In addition to the 16 States with formal requirements, another 9 States indicated that they
         are very likely to establish collaborations in the next 2 years. Texas, for example, will


Public Health and Managed Care                   -9-                                    OEI-01-98-00170
         implement requirements for formal agreements between local health departments and
         MCOs in two regions of the State by 1999.

Because collaborations are very recent, measurable accomplishments to date are
limited. Yet, all 16 of these State officials indicated that they plan to continue the
collaborations.

         Very few States employ specific performance measures to evaluate their collaborative
         activity or progress. Some States reported plans to gauge their collaborative impact
         through HEDIS or other MCO quality performance measures. Yet overall, States
         reported, as one State health department summarized, “future goals to explore more
         specific data and measurement issues, including building a set of common indicators or
         standards to evaluate the effectiveness of collaborative efforts.” Most of these 16 States
         reported progress in developing relationships between MCOs and public health
         departments as their most significant accomplishments to date.

         States described future expectations to strengthen linkages between the clinical activities
         of managed care organizations and population-based functions of public health
         departments. These expectations include collaborations that would strengthen public
         health surveillance systems to track and trace disease in communities, conduct appropriate
         environmental interventions, identify community health needs and gaps in services, and use
         data in planning and policy development.

Despite the absence of State law or regulations, another 27 States reported that
some collaborations are taking place between managed care plans and public
health departments.

         Several voluntary initiatives underway reflect a growing awareness on the part of both the
         public health and the managed care sectors of mutual benefits to be gained from working
         with each other. Many communities are getting together without auspices of formal
         requirements.

         As an example of an innovative collaborative initiative, the HHS Regional Director’s
         Office in New England has initiated a Public Health/ Managed Care Collaborative
         Initiative. Public health officials and managed care representatives in the six New England
         states (Maine, New Hampshire, Vermont, Massachusetts, Rhode Island, and Connecticut)
         are discussing collaborative opportunities in areas of asthma detection and prevention,
         tobacco control, and improving childhood immunization rates.




Public Health and Managed Care                  - 10 -                                  OEI-01-98-00170
Collaborations focus predominantly on delivering personal
health and medical care services. Collaborations that address
population-based public health activities are much less
common. 

The majority of States reported that collaborations focus on delivering direct

personal and medical services to Medicaid eligible individuals enrolled in

managed care plans. 


         Twelve of the 16 States reported that collaborations focus activity on direct-care services.
         The Medicaid managed care contract serves as the primary vehicle for most of these
         collaborations. Some States encourage health departments to become a part of the
         managed care plan’s network of providers. Other States require health plans to reimburse
         local health departments for delivering certain services.

         We identified two primary activities that comprise the direct-care services that
         collaborations address. First, States reported collaborations that focus on direct medical
         services that local health departments have traditionally provided to Medicaid clients.
         These include services for communicable diseases, clinical preventive services, and
         primary care services. For example, Colorado law requires Medicaid MCOs to contract
         with local health departments for direct care services. Oregon requires contracts between
         Medicaid managed care plans and local health departments in order to specify how
         reimbursement will occur for STDs, TB, and family planning services.

         Second, State health departments reported significant activity in providing direct care
         services that complement medical services delivered to Medicaid populations. For
         example, New Mexico’s three Medicaid MCOs contract with the Department of Health
         for the Department to offer and provide prenatal and infant/child case management
         services to eligible pregnant women. In Tennessee, local health departments provide
         outreach, education, and case management services to Medicaid clients enrolled in
         managed care plans.

         We heard three primary reasons that States give priority to arrangements around the
         delivery of direct-care services. First, the public health system has built considerable
         expertise over the past several decades in addressing obstacles that Medicaid populations
         face in accessing medical services. Twelve States reported significant concern within the
         public health community about losing their role in service delivery to managed care
         organizations. Repeatedly, public health officials expressed concern over the ability of
         managed care organizations to meet the diverse set of needs of Medicaid clients, that are
         often not apparent in delivering services to their commercial populations.

         Second, reimbursements from managed care organizations for direct care services allow
         public health departments to continue their clinical and direct care programs. Over the


Public Health and Managed Care                  - 11 -                                   OEI-01-98-00170
         past several decades, Medicaid reimbursements for direct care services have been
         significant sources of revenue supporting several types public health programs and
         functions. With major shifts of Medicaid populations into managed care plans, these
         funding streams have also shifted, confronting the public health system with significant
         losses in revenue. Health departments also expressed concern that the complete absence
         of clinical services from their programs will not allow them resources to provide services
         to the uninsured or homeless, functions which the public health community views as a
         fundamental responsibility.

         Third, health departments reported concern over health services delivered through
         managed care organizations that are especially dependent upon coordination between
         clinical and population-based activities. For example, if a managed care organization
         identifies and treats an enrollee with a sexually transmitted disease, how should the MCO
         coordinate follow-up STD contact tracing? Who is responsible for treating partner-
         contacts who are not a part of the MCO enrolled population?

Very few States reported collaborative activities that link the clinical activities of
managed care organizations with population-based functions that are the unique
responsibility and authority of public health departments.

         Because MCOs are organized systems of medical care for defined populations, the medical
         information and data that they maintain could greatly strengthen public health department
         surveillance systems to facilitate activities that protect the health of the population at-
         large. These activities include tracking and tracing disease in communities, identifying
         community health needs, identifying emerging public health issues, and activating
         appropriate community interventions.

         However, based on our survey, States reported few collaborative activities that are taking
         routine advantage of clinical information from MCOs to perform essential public health
         population-based functions. Only four States reported that their collaborations involve
         sharing disease incidence data; six States reported sharing reportable disease data; and
         only two States reported sharing environmental exposure data. None of the States
         indicated collaborative activity that facilitates public health environmental interventions
         based on managed care clinical information.

         States reported slightly more collaborative activity that increases managed care
         involvement in communities beyond their enrolled populations. For example, six States
         reported collaborative activity in health education campaigns; and eight States indicated
         activity in planning and policy development. Overall, however, these activities are not
         based on data that systematically identify community health needs. One managed care
         representative summarized these activities as “the philanthropic side of managed care that
         fits into their ‘community benefit’ activities, but does not affect their core business
         operations, such as medical practices and medical data.”


Public Health and Managed Care                  - 12 -                                  OEI-01-98-00170
         The potential of linkages between managed care clinical activities and essential public
         health functions can be seen in efforts underway in a few States. For example, New York
         and Michigan use guidelines to facilitate coordination between managed care clinical
         activities and public health population-based functions. The guidelines specify essential
         responsibilities of managed care organizations and public health departments for specific
         issues of public health importance. These essential activities include, for example,
         delivering medical services, conducting appropriate follow-up or environmental
         interventions, reporting disease incidence, conducting disease surveillance, coordinating
         community resources, and developing educational materials. Public health issues
         addressed include communicable disease control, STDs, HIV/AIDS, TB, cancer, diabetes,
         lead poisoning, rabies, and immunizations.

         Oregon also reported collaborative activity intersecting managed care clinical and public
         health population-based functions. The Department of Health has initiated a Managed
         Care/ Public Health Assessment Initiative, which requires managed care organizations to
         share encounter data on their Medicaid populations. Data from this initiative are being
         analyzed to pinpoint incidence and prevalence of diabetes and breast cancer among
         Medicaid beneficiaries.

         Five States also indicated collaborative activity to develop population-based data
         registries. Generally, these registries involve the centralized collection of immunization
         data. As an example of a promising activity in this regard, Missouri has developed a state-
         wide central immunization registry that is planned as part of a larger integrated
         information system of all public health functions. The project has attracted active
         managed care participation and interest. One public health department official explained,
         “because populations are constantly moving in and out of MCOs, they see a particular
         advantage to accessing immunization histories for current and new enrollees.”

         Both the Oregon and Missouri projects are supported in part through a CDC grant to
         facilitate development of integrated State information systems.




Public Health and Managed Care                  - 13 -                                 OEI-01-98-00170
We identified three major areas of challenge that confront
collaborations to support public health population-based
functions.
Although there is a conceptual alignment between managed care and public
health concepts of prevention-oriented health services for defined populations,
the managed care goals do not easily translate into public health goals.

         We heard three fundamental differences that it make it difficult to establish managed care-
         public health relationships.

         First, the two sectors have traditionally operated in isolation from each other; they often
         have minimal understanding of what the other does and how these activities might
         intersect in collaborative work that truly benefits both partners. Thirteen States indicated
         a lack of awareness within the managed care community of public health activities as a
         significant obstacle hindering collaboration. Nine States indicated in our survey that lack
         of knowledge about managed care posed significant obstacle to collaboration.

         We heard several examples that demonstrate the isolation of both sectors. First, managed
         care organizations commonly do not understand the population-based functions conducted
         by public health departments. One expert identified common managed care perceptions of
         public health departments as synonymous with the Medicaid agency, or “public” providers
         of health care services. In addition, managed care representatives often understand public
         health activities as preventive clinical services for populations of people. In sum, MCOs do
         not recognize how they can contribute to a unique role for public health departments that
         extends beyond the MCO’s own capacity and authority.

         We also heard repeated comments that public health is not abreast of managed care
         market environment, which inhibits efforts to coordinate and communicate effectively.
         One expert told us that, “Public health likes to think of managed care organizations as the
         old staff-model HMO.” In reality, managed care organizations represent a variety of
         rapidly evolving prepaid health care systems, ranging from non-profit to for-profit entities,
         and from tightly managed staff model systems, to relatively loose configurations of
         provider networks.

         Second, there are very different financial incentives between the two cultures. Eleven
         States reported a general distrust of managed care plans as a significant obstacle; managed
         care expressed frustration with lack of public health appreciation for managed care cost
         considerations. MCOs are operating in a competitive business environment, where short-
         term cost savings are paramount. Operational activities and decisions are based on a
         narrow analysis of the cost and benefits of health care services provided to their enrolled
         populations. Any expansion of benefits means an increased premium that must be paid by


Public Health and Managed Care                  - 14 -                                   OEI-01-98-00170
         enrollees and affects their financial bottom line. Public health departments, on the other
         hand, are carrying out broad-based social responsibility to ensure the health of the public
         at-large. It is often difficult to measure the significance of these activities in a narrow
         cost-benefit analysis. In addition, because public health activities are paid for through
         governmental revenues, the actual costs are much more diffuse. One managed care
         representative summarized differences, “Public health has a fundamental charge to reduce
         human suffering and disease for the population at-large. Health plans are charged with
         how to pay for specific health care services for their enrolled populations.”

         Third, States reported obstacles to communication between the two sectors. For example,
         organizational vocabularies demonstrate fundamental differences. We heard one example
         in the way public health and managed care communities understand the term “risk”. In the
         public health world, the term “risk” refers to health conditions that people might suffer
         from (i.e. risk of cancer). In the managed care world, the term “risk” translates into the
         financial burden resulting from utilization of medical services. Another example is the
         reference to the term “population”. Public health officials are thinking in terms of entire
         community or state populations. Managed care organizations focus on their enrolled
         populations. Finally, collaborative members reported confusion over the term “provider”.
         Public health officials commonly referred to the MCOs as providers; while MCOs referred
         to networks of medical practitioners as providers. This confusion reflected common MCO
         frustration with lack of public health awareness of limitations of MCO influence over
         provider practices.

Managed care operational decisions and activities are affected by multiple
stakeholders in the health care environment, such as medical providers and
health care purchasers. Yet, these groups are largely absent in planning and
implementing the collaborations.

         State survey responses indicated that the groups planning and implementing the
         collaborations are overwhelmingly composed of health departments, the Medicaid
         agencies, and managed care representatives. We identified three key groups that are
         largely absent from the collaborative planning and implementation process.

         First, members of collaborative groups reported repeatedly the importance of input and
         involvement from medical providers. Yet, only three States reported involvement of
         medical providers in planning the collaborations. Ten States indicated the lack of priority
         of this activity among providers as a significant obstacle hindering collaborations. One
         member of a collaborative group summarized the absence of providers as, “There is a lot
         of ‘dialogue’ between MCOs and public health departments. But when the rubber hits the
         road, it’s at the provider level.” Managed care increasingly is evolving away from tightly
         integrated staff-model HMOs, yet plan representatives told us they found public health
         misperceptions of MCO’s ability to direct and influence provider behavior.



Public Health and Managed Care                  - 15 -                                  OEI-01-98-00170
         Second, fourteen out of the 16 States reported no or limited roles of purchasers in
         planning or implementing the collaborations. Yet, twelve States reported a lack of
         purchaser interest in supporting managed care collaborative activities with public health
         departments as a significant obstacle hindering collaboration. Managed care
         representatives repeatedly reported that the influence that purchasers exert over MCO
         activities is poorly understood. Repeatedly, members of collaborative groups reported the
         need to increase purchaser interest in the potential business benefits of public health
         population-based preventive functions.

         Third, States reported little to no involvement of other community health-related
         organizations. Attention to these organizations is important to integrate the collaborative
         activities with existing community efforts and resources. Despite the potential role these
         groups might play, much of the collaborative activity has focused on managed care and
         public health relationships, and has not yet filtered out into broader community groups.

Despite opportunities for managed clinical data to further public health
population-based activities, States reported extensive obstacles hindering
activities to share data.

         States identified major obstacles for sharing data that fall into three major categories.

         First, eleven States indicated technical difficulties in matching data systems are an obstacle
         hindering collaboration. Collaborations must address the differences between public
         health and managed care data elements in order to use managed care data in a public
         health context. For example, public health collects data based on conditions, such as
         cancer; managed care data rest on medical services that are delivered and paid for by the
         MCOs, such as chemotherapy or surgeries rendered for patients with cancer.

         Second, we heard about proprietary concerns for releasing data. For example, ten States
         indicated that managed care organizations fear that data will be used for regulatory
         purposes. Eleven States indicated competition among health plans hinders data sharing.
         One managed care representative summarized, “Even if the MCO is not against releasing
         the data, it needs a good reason to let data leave the plan. Otherwise releasing the data
         presents a potential vulnerability for competitors to use data in some competitive manner
         they are not yet aware of.”

         Third, there are privacy issues around patient confidentiality and sharing personal medical
         information. Whenever personal information is released, there is a vulnerability for
         misuse. In some cases privacy issues present significant barriers. For example, Minnesota
         was unable to pass legislation for a statewide immunization registry because of an existing
         law barring the release of personal immunization information.




Public Health and Managed Care                   - 16 -                                    OEI-01-98-00170
                                  CONCLUSION

         Significant attention has focused recently on opportunities for collaboration between
         managed care organizations and public health departments: potential for comprehensive
         approaches that intersect the patient-oriented practice of medicine and the population-
         based strategies of public health. As organized, data-driven systems of medical care
         delivery, MCOs could facilitate health departments’ ability to track disease, identify
         outbreaks, and implement effective interventions that meet communities’ needs.

         Based on the findings of our study, however, we come to one central conclusion:
         Collaborations that address public health population-based strategies have barely begun.

         When we began this study we expected to find numerous examples of how health
         departments are working with MCOs to obtain information that assists them in carrying
         out their responsibility for the health of the population at large. To date, however, most
         collaborations have focused on arrangements for delivering services to individuals, not on
         population-based public health. We recognize the vital public health importance of
         medical care services, but we focus our attention here toward population-based activities.4

         Despite conceptual links between the two sectors’ activities, our report identifies
         significant constraints that inhibit these types of collaborations.

         <	    Isolation. Traditional isolation between the medical and public health sectors
               compounds the odds against productive areas of collaboration that recognize the
               essential and unique roles of each sector.

         <	    Limited stakeholder participation. Limited involvement of health care providers
               and purchasers narrows the base of support needed for MCOs’ partnership in public
               health population-based practices.

         <	    Data challenges. Demands for time, money, and other resources challenge the ability
               to coordinate data systems and collection.

         In fact, the current environment may mean that opportunities for collaboration are fading.

         <	    Competition. The MCO market is highly competitive. Performing a broad-based
               community function reaching beyond the enrolled population is unlikely where the
               short-term bottom line is paramount, unless all plans make the same contribution.

         <	    Growth of networks. The evolution of managed care toward decentralized network
               models further erodes the potential for collaboration with organized systems of care.


Public Health and Managed Care                   - 17 -                                  OEI-01-98-00170
                      OPPORTUNITIES FOR
                         IMPROVEMENT

         Given these constraints, constructive movement toward collaborations to further essential
         public health population-based activities is hard pressed based on good will efforts alone.
         Because regulation of managed care plans occurs for the most part at the State level, the
         Federal role in encouraging MCOs to invest in broad population-based activities is limited.

         The Department of Health and Human Services can exert an important leadership role by
         encouraging collaboration under its existing authorities. Because many Departmental
         activities cut across individual agency lines, fostering interagency coordination and
         collaboration will be critical. To be sure, components within the Department have begun
         to coordinate their managed care and public health activities. For example, HCFA,
         HRSA, and CDC have recently signed a formal interagency agreement to support data
         sharing between State Medicaid and public health agencies.

         Another important step toward collaboration is the development of sample purchasing
         specification language for use by State Medicaid offices when they contract with managed
         care plans. These purchasing specifications were developed by the George Washington
         University Center for Health Policy Research, under contract with HRSA and CDC and
         with input from HCFA. The specifications provide a base structure to establish and
         negotiate collaboration among public health agencies, purchasers of publicly-funded health
         services, and managed care plans. Additionally, the specifications address public health
         issues, quality assurance, data collection and sharing, memoranda of understanding,
         surveillance, and information systems.

         Toward this goal, and with this progress in mind, we offer some options for consideration.
         Agencies within the Department could adapt these to further enhance the coordination and
         collaboration between managed care and public health.

         <	    The Centers for Disease Control and Prevention could place emphasis in the
               appropriate activities it funds on projects that focus on integrating the data and
               communications infrastructure and improving data sharing between public health
               departments, Medicaid agencies, and managed care organizations. The CDC already
               supports some collaborative activities. Among the State collaborations we examined,
               Minnesota, Oregon, and Missouri identified support from CDC’s Assessment
               Initiative, a cooperative agreement program intended to help States improve data
               coordination and integration as a way of developing information for improved policy
               making. Missouri noted that it also is receiving CDC support under the Information
               Network for Public Health Officials (INPHO) project, designed to assist States to
               develop the infrastructure and support needed for effective information and


Public Health and Managed Care                  - 18 -                                 OEI-01-98-00170
               surveillance systems. As it awards future funding under these authorities, the CDC
               might wish to pay particular attention to projects that help State public health
               departments determine how they can work with organized delivery systems to design
               information systems that enhance their capacity and ability to share surveillance data.

               The CDC also could require States to submit information on the extent to which the
               programs the agency funds work with managed care organizations. For example, the
               CDC might require States to document the extent of MCO reporting to
               communicable disease or cancer registries.

         <	    The Health Care Financing Administration could encourage collaboration by
               developing guidance for States on the kinds of public health activities that might be
               included in Medicaid managed care contracts. For example, the HCFA might
               encourage States to require that managed care plans contracting with Medicaid
               specify how they will work with State and local health agencies to identify public
               health goals, and how they will work with the agencies to achieve these goals.

               The HCFA also might provide specific guidance to States on guidelines that could be
               communicated to health plans. For example, the sample purchasing specifications
               noted previously could be used by State Medicaid programs as a tool to help identify
               key issues and decision points as they prepare their purchasing agreements for
               services such as immunization and lead poisoning screening, prevention, and
               treatment. The HCFA could encourage States to review and consider the
               appropriateness of these specifications, and how they could be adapted to the unique
               needs of each State’s Medicaid program. The sample purchasing specifications may
               be found at http://www.gwumc.edu/chpr.

               The HCFA could also encourage managed care plans, both Medicaid and or
               Medicare, to share HEDIS or other appropriate data with State public health
               departments in order to enhance their public health surveillance function. One way in
               which HCFA could encourage managed care plans to provide such information is
               through the QISMC (Quality Improvement System for Managed Care) that Medicare
               managed care plans and many State Medicaid plans are using. The QISMC uses
               HEDIS as a major data collection instrument. Consequently, QISMC provides one
               opportunity through which health plan contracts for both Medicare and Medicaid
               might place emphasis on incentives to share information with public health agencies.
.
         <     The Health Resources and Services Administration could work with organizations
               it funds, such as community health centers, that participate in managed care networks.
               The HRSA could help these providers determine how they might enhance data
               exchange with the State public health departments. As the agency funds grant
               programs to the States, such as Title V Maternal and Child Health State Block
               Grants, HRSA could encourage States to provide information on the extent to which


Public Health and Managed Care                    - 19 -                                  OEI-01-98-00170
               these programs are linking with managed care organizations to obtain data to further
               the health departments’ capacity to conduct disease surveillance activities.

               The HRSA also could foster collaborations by encouraging its field units in the
               Department’s Regional Offices to work proactively with the States to initiate
               collaborative activity with managed care organizations. The Regional Offices, in fact,
               may be the best positioned of any Department component to initiate these types of
               activities. The Regional Health Administrators work with State and local officials on
               multiple health programs funded by the Department. Consequently, they know and
               are sensitive to the local health care environment and market. Much could be learned
               from the Region 1 initiative that brings together public health officials and managed
               care executives from the six New England States to develop collaborative strategies.
               These officials and plans are working together to develop guidelines for treating
               asthma, reducing tobacco use, and improving immunization levels, according to
               locally identified needs.

               The HRSA also is sponsoring a series of meetings in conjunction with the American
               Public Human Services Association, which represents State Medicaid directors. The
               goal is to bring together State public health providers (such as Maternal and Child
               Health program directors, Primary Care Association leadership, and Ryan White Act
               providers) with State Medicaid directors to address issues of mutual concern and to
               create strong working relationships between Medicaid offices and public health at the
               State-level. The agency could use these, or similar, meetings as a way to encourage
               and involve MCOs, as well as local health departments, in collaborative activities.




Public Health and Managed Care                   - 20 -                                 OEI-01-98-00170
                          COMMENTS ON THE
                            DRAFT REPORT

         We received written comments on the draft report from the Centers for Disease Control
         and Prevention (CDC), the Health Care Financing Administration (HCFA), the Health
         Resources and Services Administration (HRSA), and the Association of State and
         Territorial Health Officials (ASTHO). In addition, we received verbal comments from
         staff in the Office of the Assistant Secretary for Planning and Evaluation.

         In response to the comments, we have made a number of editorial and technical changes in
         the text. As suggested by those who commented, we also have included a copy of the
         mail survey, with frequency distribution of responses, as Appendix B of this report.

         Here, we summarize comments from each of the respondents and present our response to
         the salient points that they raised. The full text of each set of comments is included in
         Appendix A.

Centers for Disease Control and Prevention

         The CDC generally agrees with our report. The agency asks that we clarify wording in
         the Executive Summary, regarding our characterization of the emphasis it might place
         upon activities it funds. We have adopted, with minor modification, the CDC’s
         recommended language regarding specific ways of encouraging public health and managed
         care linkage. We believe that the agency’s suggested language provides additional
         specificity regarding actions that it could take to further the intent of actions we
         suggested.

         The CDC asks us to “amplify the importance of the contract purchasing specifications”
         that we reference. We recognize these specifications as an important example of
         interagency cooperation among CDC, HCFA, and HRSA, and we have included CDC’s
         suggested language in the appropriate section of the report.

         The CDC also raises concerns that our conclusion is too negative. We based this
         conclusion on evidence that we found while doing our research — the limited extent and
         scope of collaborative efforts, and the formidable constraints that confront such
         collaboration. We continue to believe that constructive movement toward collaboration
         will not occur naturally; therefore, we encourage the appropriate Federal agencies,
         including CDC, HCFA, and HRSA, to build upon and enhance the leadership efforts that
         they have begun to exert.



Public Health and Managed Care                 - 21 -                                 OEI-01-98-00170
Health Care Financing Administration

         The HCFA concurs with the opportunities for improvement we identified in our report,
         but the agency raises a number of issues to which we wish to respond.

         We are encouraged by the agency’s interagency agreement with HRSA and CDC to
         support data sharing between Medicaid and public health agencies. We view this as an
         important step. We agree with HCFA that all three agencies should exchange ideas and
         analysis, as well as data, as a way of furthering collaboration.

         The HCFA questions whether it should require Medicaid plans to share HEDIS data with
         State public health agencies. We believe that HCFA could exert leverage for further
         collaboration between State Medicaid programs and managed care plans by requiring the
         sharing of such data. Efforts that encourage Medicaid agencies to coordinate sharing of
         information and data with public health agencies are an important step in this direction.

         The HCFA also asks us to seek the input of State Medicaid directors. In the course of
         research for this inspection, we carefully considered surveying all Medicaid directors, but
         opted to focus our survey on public health departments for two reasons. First, we
         intentionally wished to examine the topic of collaboration from the public health agency
         perspective, rather than the perspective of contract purchasing arrangements under
         Medicaid. Second, we had hoped to find collaborations occurring in the private managed
         care sector (as we found in a few States), as well as Medicaid managed care plans.

Health Resources and Services Administration

         The HRSA asks that we replace our suggestion that the agency require States to provide
         information on linkages with language to encourage the development of voluntary
         reporting measures, which the agency has developed in negotiations with the States. In
         response, we modified our language. We encourage the agency to work with States and
         organizations through grant-funded programs to enhance information exchange on the
         extent of linkages between States and managed care plans. We believe that having such
         information available would provide HRSA with a baseline from which the agency could
         develop further efforts in this area. We believe that having such information is critical for
         HRSA as it develops the capacity of its Center for Managed Care “to provide technical
         assistance, training, information dissemination, and evaluation on managed care issues that
         cross all of HRSA’s programs” as noted in its comments.

         The HRSA also notes that a major focus of its efforts is on quality of care and service
         delivery, while obtaining data on disease surveillance is a major focus of the CDC. The
         reasoning underlying this report and other efforts associated with encouraging
         collaboration, is that such linkages are vital for effective public health intervention in both
         population-based health surveillance and service delivery strategies.


Public Health and Managed Care                    - 22 -                                    OEI-01-98-00170
         Finally, we note HRSA’s statement, “many States are not experienced in delivering
         population-based health services.” We believe that although public health has increasingly
         focused on the delivery of personal care services over the past several decades, an
         important segment of the public health community continues to carry out essential
         population based functions. It is toward this segment of the public health community that
         we encourage enhancement and growth through relationships with managed care plans.

Association of State and Territorial Health Officials

         The ASTHO raises concerns that our report does not adequately reflect the work being
         done in many States, particularly the vital public health importance of collaborations that
         focus on delivery of services, as opposed to population-based activities. We do not in any
         way wish to diminish the importance of these services. Rather our intent was to focus on
         population-based activities. We have added language to the report the reflects the vital
         public health role that delivery of specific public health services plays.

         The ASTHO indicates that, while it may be true that State and local public health officials
         are missing out on opportunities, our report seems to indicate that the problem lies solely
         with health departments. We do not mean to imply that this situation is solely the fault of
         public health departments. We do not ascribe blame to either sector. Our text indicates
         clearly responsibilities and challenges that confront both the public health and the managed
         care communities. We address, for example, the lack of financial incentives for
         collaboration among both the public health and managed care sectors, and we noted the
         increasingly competitive market environment in which managed care plans operate. We
         certainly agree that it would behoove both the public health and managed care
         communities to carry out additional research on the costs and benefits of collaboration.

         The ASTHO questions why we focus our suggestions for improving collaboration only
         toward Federal agencies, rather than toward the States, as well. Our jurisdiction is with
         Federal agencies only, and we do not direct suggestions and recommendations at State
         and local governments regarding their operations. Instead, in this report we call on our
         Federal colleagues to exert leadership to encourage collaborations among their partners at
         the State and local levels. We recognize that moving forward in the endeavors we
         describe here will take concerted effort and cooperation at all levels.

         The ASTHO also urges us to acknowledge current literature that is addressing
         collaboration such as we describe here. As part of our research for this report, we
         examined that work, particularly the work cited in the ASTHO comments. This literature
         is a new and important contribution to the increasing attention being paid to collaboration
         between managed care and public health. The recent attention being paid to this field
         reflects, we believe, the types of issues and steps we identify in our analysis.




Public Health and Managed Care                  - 23 -                                  OEI-01-98-00170
                                                                                         APPENDIX A


                            FULL TEXT OF COMMENTS
                                ON DRAFT REPORT


                                                                                                PAGE


Centers for Disease Control and Prevention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


Health Care Financing Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


Health Resources and Services Administration . . . . . . . . . . . . . . . . . . . . . . . . . . 30


Association of State and Territorial Health Officials . . . . . . . . . . . . . . . . . . . . . . 34





Public Health and Managed Care                   - 24 -                                    OEI-01-98-00170
Public Health and Managed Care   - 25 -   OEI-01-98-00170
Public Health and Managed Care   - 26 -   OEI-01-98-00170
Public Health and Managed Care   - 27 -   OEI-01-98-00170
Public Health and Managed Care   - 28 -   OEI-01-98-00170
Public Health and Managed Care   - 29 -   OEI-01-98-00170
Public Health and Managed Care   - 30 -   OEI-01-98-00170
Public Health and Managed Care   - 31 -   OEI-01-98-00170
Public Health and Managed Care   - 32 -   OEI-01-98-00170
Public Health and Managed Care   - 33 -   OEI-01-98-00170
Public Health and Managed Care   - 34 -   OEI-01-98-00170
Public Health and Managed Care   - 35 -   OEI-01-98-00170
                                                                                    APPENDIX B

      FREQUENCY DISTRIBUTION OF MAIL SURVEY




U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES

OFFICE OF INSPECTOR GENERAL

OFFICE OF EVALUATION & INSPECTIONS


                                   Survey of State Health Officers

This survey is part of a study being conducted by the Office of Inspector General, U.S.

Department of Health and Human Services. The purpose of the study is to assess the extent to

which State and Local public health departments are collaborating with managed care plans to

further public health activities. 


This survey seeks basic information about collaborations between health departments and

managed care plans. For the purposes of this survey, our concern is with managed care plans,

such as health maintenance organizations and similar entities, that are licensed or regulated by

your State.


Information that you provide in this survey will help us to develop a comprehensive national

picture of collaborations between public health departments and managed care plans. We are also

interested to learn details about any innovative activities taking place in your State.


Please identify your State and the name of the person completing the survey in case we need

additional information or clarification:


State:                      Frequency Distribution of 47 Survey Responses

Name of person completing survey:______________________________________________

Title and Department:_________________________________________________________

Phone number and email:______________________________________________________

_
                   Please return your completed survey by Friday, June 19.
                     Return the survey either by Fax to (617) 565-3751,
                        or in the enclosed business reply envelope to:
              OIG-OEI Room 2475, JFK Federal Building, Boston, MA 02203
                 If you have any questions about the survey, please contact:

                     Russell Hereford (617-565-1054, email: rherefor@os.dhhs.gov)
                       Nikki Pinson (617-565-1056, email npinson@os.dhhs.gov)

Public Health and Managed Care                  -36-                                    OEI-01-98-00170
MECHANISMS FOR COLLABORATION:                      This section seeks information about any
formal mechanisms that require collaborations between managed care plans and public health
departments in your State.


1. Does your State require managed care plans to formally identify how they will collaborate with
State or Local health departments to further public health activities?

    ‘ YES If “Yes," please check any of the following formal mechanisms that apply.
    Please send us a copy of the relevant regulations or statutes governing these
    provisions; please provide references to published materials, web sites, and any
    citations that we might look up ourselves. N =16

              1a. ‘ Collaboration required by State law. N =9



              1b. ‘ Collaboration required by State Health Department regulations. N =6



              1c. ‘ Collaboration required by other State agency regulations (please
              specify agency): N =2



              d. ‘ Other: Collaboration required by other formal mechanism (please
              specify mechanism): N =7




    ‘ NO If managed care plans are not required to identify how they will collaborate
    with public health departments in your State, please skip to the last page of the survey
    (page 9). N =31




    If you answered “Yes,” please continue to next page þ þ þ



Public Health and Managed Care                  -37-                                   OEI-01-98-00170
TYPES OF COLLABORATIVE ACTIVITIES:                           This section seeks information about
the types of public health functions that the collaborations are pursuing. Please include any
functions that are not listed. We are also interested in examples of particularly significant
collaborations in your State.

           2. Please estimate the level of activity that the collaborations devote to the following
           public health functions.
                             Function                  No       Limited     Moderate      Extensive
                                                     activity   activity    activity       activity
           Surveillance functions
           2a. Environmental exposure data               2          2            2             0
           2b. Disease incidence data                    2          10           2             2
           2c. Reportable disease data                   4          6            2             4
           2d. Laboratory data                           8          5            1             2
           2e. Population-based data registries          7          4            2             3
           2f. Other:                                    13         0            1             1
           Population-focused functions
           2g. Planning and policy development           6          2            7             1
           2h. Health education campaigns                2          8            6             0
           2i. Provider education                        4          5            6             1
           2j. Environmental interventions               9          7            0             0
           2k. Other:                                    15         0            0             0
           Functions focused on individuals
           2l. Delivery of services                      2          2            9             3
           2m. Operation of school-based                 5          7            3             1
               programs
           2n. Case management/ Enabling                 3          4            7             2
               services
           2o. Other:                                    14         0            1             0

3. Please provide examples of particularly significant collaborative activities; please include the
names, affiliation, and phone numbers/e-mail of people we might contact for more information.


Public Health and Managed Care                    -38-                                    OEI-01-98-00170
COLLABORATIVE PLANNING:                    This section seeks information about the
collaborative planning process. Please provide information about the groups involved in
planning the collaborations and the information sources used to identify areas on which to
collaborate.

    4. To what extent do the following groups play roles in planning the collaborations?
                          Group                     No       Limited     Moderate     Extensive
                                                    role       role        role         role
    4a. State Health Department                        2         1            4             9
    4b. Medicaid agency                                1         2            4             9
    4c. Local health agencies                          3         6            3             4
    4d. State Legislature                              4         9            1             2
    4e. Managed care plans                             1         1            8             6
    4f. Practitioners affiliated with managed          4         9            1             2
    care plans
    4g.Hospitals affiliated with managed care          4         7            4             1
    plans
    4h. Purchasers/ Business                           8         6            1             1
    4i. Community organizations                        5         6            3             2
    4j. Voluntary health organizations                 7         5            2             2
    4k. Other groups:                                  12        2            1             1

    5. What role do the following sources play in identifying health issues for collaboration
    between managed care plans and public health agencies?
                          Sources                 No role    Limited     Moderate     Extensive
                                                               role        role         role
    Published sources
    5a. Healthy People 2000 goals                      1         6            8             1
    5b. State public health goals                      0         4            7             5
    Population-based data
    5c. State Health Department data                   0         3            7             6
    5d. Medicaid data                                  2         2            5             7
    5e. Local health agency data                       5         6            2             3
    Health plan data
    5f. HEDIS indicators                               3         2            6             5
    5g. Plan encounter data                            3         5            3             5
    5h. Other sources:                                 13        0            1             1

Public Health and Managed Care                  -39-                                    OEI-01-98-00170
IMPLEMENTATION:            This section seeks information about the implementation of the
collaborations. We are interested in 1.) if the implementation is required or voluntary and 2.)
which groups are involved in implementing the collaborations.

6. Are managed care plans required to implement collaborative activities that have been identified
or planned?

       ‘   REQUIRED. Managed care plans are required to implement collaborative activities that
       have been planned or identified. N =9

       ‘ NOT REQUIRED. Implementation of collaborations is voluntary.      N =9

       ‘ OTHER. (Please explain):           N =1




    7. To what extent do the following groups play roles in implementing the collaborations?
                           Group                   No       Limited   Moderate      Extensive
                                                   role       role      role          role
    7a. State Health Department                        1       0           9            6
    7b. Medicaid agency                                2       4           2            8
    7c. Local health agencies                          3       4           5            4
    7d. State Legislature                              9       5           1            1
    7e. Managed care plans                             0       3           7            6
    7f. Practitioners affiliated with managed          3       8           2            3
        care plans
    7g. Hospitals affiliated with managed              4       9           2            1
        care plans
    7h. Purchasers/ Business                           9       5           1            1
    7i. Community organizations                        4       7           3            2
    7j. Voluntary health organizations                 9       4           1            2
    7k. Other Groups:                                  13      0           2            1




Public Health and Managed Care                  -40-                                 OEI-01-98-00170
OUTCOMES ASSESSMENT:                      This section seeks information about measuring the
outcomes of the collaborations.

8. Does your State assess the outcomes of the collaborations?

          N =9 ‘ YES, our State assesses the outcomes of collaborations.

          N =7 ‘ NO, our State does not assess the outcomes of collaborations.
                             (Please skip to Question 10).

8a. How does your State assess the outcomes of the collaborations? (Please send us copies of
any formal outcomes measures used or reports prepared.)




    9. To what extent do the following groups play roles in assessing the outcomes of the
    collaborations?
                           Group                       No      Limited   Moderate     Extensive
                                                       role      role      role         role
    9a. State Health Department                           7       3           1            5
    9b. Medicaid agency                                   8       2           1            5
    9c. Local health agencies                             9       5           1            1
    9d. State Legislature                                 11      3           0            2
    9e. Managed care plans                                8       2           1            5
    9f. Practitioners affiliated with managed             8       4           1            3
    care plans
    9g. Hospitals affiliated with managed care            9       4           1            2
    plans
    9h. Purchasers/ Business                              12      3           0            1
    9i. Community organizations                           11      3           0            2
    9j. Voluntary health organizations                    11      2           1            2
    9k. Other Groups:                                     15      0           0            1



Public Health and Managed Care                     -41-                                 OEI-01-98-00170
OBSTACLES TO COLLABORATION: This section seeks information about obstacles
that make collaborations in your State difficult. Please describe any obstacles that are not
listed.

 10. In your opinion, to what extent do the following obstacles hinder successful collaboration
 between public health departments and managed care plans?
                                                            No        Minor      Moderate        Major
                                                          obstacle   obstacle    obstacle       obstacle
 Within the public health community:
 10a. Lack of knowledge about managed care.                  4           3            5                4
 10b. Lack of clearly defined public health goals.           7           4            4                1
 10c. Fragmentation of public health authority and           4           8            3                1
 responsibility across multiple State agencies.
 10d. General distrust of managed care plans.                3           2            7                4
 10e. Concern about losing service delivery role to          3           1            8                4
 managed care plans.
 Within the managed care community:
 10f. Lack of awareness of public health agencies and        1           2            6                7
 activities in the community.
 10g. Public health goals not integrated into core           0           1            5            10
 business strategies of managed care plans.
 10h. Medical providers do not view collaboration            0           5            5                6
 with public health departments as a priority.
 10i. Purchasers do not view collaboration with public       1           3            4                8
 health departments as a priority.
 Data concerns:
 10j. Technical difficulties in matching data systems.       2           3            5                6
 10k. Regulatory barriers to accessing Medicaid data.        5           6            4                1
 10l. Privacy/ confidentiality concerns.                     3           5            7                1
 10m. Competition among health plans/ concern about          2           3            8                3
 releasing proprietary information.
 10n. Fear that data will be used for regulatory             3           3            7                3
 purposes.

11. Please tell us about any other major obstacles to collaboration that you have encountered
(please use back of page if needed)

Public Health and Managed Care                  -42-                                 OEI-01-98-00170
ACCOMPLISHMENTS:             This section seeks information about what the collaborations have
achieved and what you hope to see in their future.

12. Accomplishments: What have been the most significant accomplishments to date of the
collaborations between managed care plans and public health departments?




13. Do you expect your State to continue the collaborative activity?
‘ YES (please answer question 14). N=16

‘ NO (you have completed the survey, please see instructions below). N=0



14. What opportunities do you hope to realize through collaborations in the future?




                             Thank you for completing the survey.
                     Please return your completed survey by Friday, June 19.
Return the survey either by Fax to 617- 565-3751, or in the enclosed business reply envelope to:
                OIG-OEI, Room 2475, JFK Federal Building, Boston, MA 02203

                       If you have any questions about the survey, please contact:
                     Russell Hereford (617-565-1054, email: rherefor@os.dhhs.gov)
                      Nikki Pinson (617-565-1056, email: npinson@os.dhhs.gov)




Public Health and Managed Care                   -43-                                 OEI-01-98-00170
Please answer the following questions if your State is not involved in
collaborative activities:

                                                                Unlikely      Possible    Likely       Very
                                                                                                       likely
 15. How likely is it that your State will develop                  4            11            7          9
 collaborations between public health agencies and
 managed care plans in the next two years?

16. Are there significant voluntary collaborations between managed care plans and your State’s
public health community that are seeking to further public health activities at the State and Local
levels?
            ‘ YES, there are voluntary collaborations between managed care plans and public
            health departments in our State. (please answer questions 17 and 18). N =27

              ‘ NO, there are no voluntary collaborations between managed care plans and public
              health departments in our State. (please skip to question 18). N =4

17. Please estimate the number of voluntary collaborations that are occurring in your State at the
State and Local levels:
                          17a. State-level (please estimate number): 0-8

                                 17b. Local-level (please estimate number):     0-96

 18. To what extent do the following prevent your State from establishing collaborations between
 public health and managed care?
          Obstacles preventing collaboration                  No        Minor          Moderate       Major
                                                            obstacle    obstacle       obstacle      obstacle
 18a. Lack of knowledge about managed care.                     9          13             9               0
 18b. General distrust of managed care plans.                  10          8              11              2
 18c. Concerns about public health departments                 10          5              12              4
 losing their service delivery role to managed care
 plans.
 18d. Managed care’s lack of awareness of public                4          4              12              11
 health agency activities.
 18e. Managed care plans are not a significant                 13          4              8               6
 service delivery system in your State.
 18f. Other obstacles:                                          0          0              3               3

             Thank you for completing the survey. Please return by Friday, June 19
                             following instructions on cover page.

Public Health and Managed Care                      -44-                                       OEI-01-98-00170
                                                                                 APPENDIX C

                                 ENDNOTES


1. Institute of Medicine, Healthy Communities: New Partnerships for the Future of Public
Health, (Washington, DC: National Academy Press, 1996), 15.

2. U.S. Department of Health and Human Services, Strategic Plan, September 30, 1997, p. 5-1.

3. U.S. Department of Health and Human Services, Health Resources and Services
Administration, Meeting the Challenge: HRSA and Managed Care. November, 1997, p. 1.

4. We recognize that the survey and data collection for this report are one year old, and it is
plausible that changes may have taken place over time. However, considering the continued
competition and changes in the managed care market place, and the formidable constraints our
findings identify, it seems unlikely that significant developments have occurred.




Public Health and Managed Care                 -45-                                   OEI-01-98-00170
